           Audit Report



 Using Bank Data to Identify
Supplemental Security Income
  Recipients with Potential
       Overpayments




   A-01-12-11223 | September 2013
MEMORANDUM


Date:      September 5, 2013                                                  Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Using Bank Data to Identify Supplemental Security Income Recipients with Potential
           Overpayments (A-01-12-11223)

           The attached final report presents the results of our audit. Our objective was to evaluate the
           feasibility of using bank data to identify Supplemental Security Income recipients with
           overpayments.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Using Bank Data to Identify Supplemental Security Income
Recipients with Potential Overpayments
A-01-12-11223
September 2013                                                             Office of Audit Report Summary

Objective                                  Our Findings

To evaluate the feasibility of using       We estimate SSA overpaid approximately $55 million to
bank data to identify Supplemental         18,541 SSI recipients because it was not informed of changes to
Security Income (SSI) recipients with      these individuals’ financial situations.
overpayments.
                                           If our results using sample data associated with one bank represent
Background                                 all banks, SSA potentially would have overpaid about $225 million
                                           to 76,168 SSI recipients.
While conducting our audit of
Supplemental Security Income               Receiving data from a reliable third-party source aids in mitigating
Recipients with Automated Teller           discrepancies that can occur when SSI recipients self-report their
Machine Withdrawals Outside the            personal financial situations.
United States, we identified bank
statements that contained deposit          Our Recommendation
amounts that appeared to exceed the
allowable income/resource limits. The      We recommend that SSA continue developing additional methods
sample we used consisted of SSI            to identify unreported income (earned and unearned) instead of
recipients born outside the United         relying primarily on SSI recipients’ self-reporting.
States. We selected our sample from
                                           SSA agreed with the recommendation.
this population because a Government
Accountability Office report noted that
recipients born outside the United
States accounted for at least 87 percent
of the overpayments because the
recipient was outside the United States
for more than 30 days (and the
previous audit objective was to identify
overpayments caused by these
violations).

We conducted additional analysis of
the bank statements from the same
random sample of 250 foreign-born
SSI recipients selected for our audit.
Although place of birth was not
relevant to the current audit, using the
same records represented a
considerable cost savings. Because we
had to subpoena records, we only
obtained information from one bank
for this review. However, we chose
the most commonly used bank for SSI
recipients with direct deposit.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Sample Results ...........................................................................................................................3
           Recipients with Unreported Income ....................................................................................4
           Recipients with Unreported Resources or Changes in Living Arrangements .....................5
           Recipients with No Findings ................................................................................................5
     Redeterminations .......................................................................................................................6
     Obtaining Bank Deposit Data ....................................................................................................6
Conclusion .......................................................................................................................................6
Recommendation .............................................................................................................................7
Agency Comments ...........................................................................................................................7
OIG Response ..................................................................................................................................7
Appendix A – Scope, Methodology, and Sample Results.......................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)
ABBREVIATIONS
AFI                  Access to Financial Institutions

ATM                  Automated Teller Machine

C.F.R.               Code of Federal Regulations

FY                   Fiscal Year

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

Pub. L. No.          Public Law Number

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)
OBJECTIVE
Our objective was to evaluate the feasibility of using bank data to identify Supplemental Security
Income (SSI) recipients with overpayments.

BACKGROUND
SSI is a nationwide, Federal cash assistance program administered by the Social Security
Administration (SSA) that provides a minimum level of income to financially needy individuals
who are aged, blind, or disabled. 1 No individual is eligible for SSI payments for any period
during which their income or resources exceeds the allowable amounts established under the
Social Security Act. 2

Because SSI payment amounts can fluctuate monthly depending on changes in financial
situations, SSA expects recipients to self-report these events as part of their reporting
responsibilities. Specifically, SSA requires that SSI recipients report changes in income,
resources, living arrangements, etc. 3 However, reporting such events can cause ineligibility or a
decrease in SSI payments. Consequently, recipients’ failure to self-report has been a major cause
of SSI overpayments since the SSI program’s inception. According to SSA’s Office of Quality
Performance, a “. . . key to improving payment accuracy in the SSI program is the establishment
of programmatic policies and procedures that permit timely identification of changes through
electronic verification or more frequent recipient reporting.” 4

The Social Security Act was amended in 1999 to allow SSA to request financial data for SSI
recipients, and SSA updated its regulations in 2003. 5

In July 2008, we issued a report on Supplemental Security Income Recipients with Excess Income
and/or Resources (A-01-08-18022). In that review, we estimated that overpayments, totaling
approximately $408.9 million, were undetected because 68,966 recipients did not inform SSA of
changes in their income and/or resources. We recommended that SSA obtain electronic bank




1
    Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
2
 Social Security Act § 1611(a), 42 U.S.C. § 1382(a) and 20 C.F.R. § 416.202. See also Social Security Act
§ 1631(e), 42 U.S.C. § 1383(e), Relevant information will be verified from independent or collateral sources to
ensure such benefits are only provided to eligible individuals and the amounts of such benefits are correct and
20 C.F.R § 416.207.
3
    20 C.F.R § 416.708.
4
 SSA Office of Quality Performance, Fiscal Year 2010 Title XVI Payment Accuracy (Stewardship) Report,
June 2011, p. 3-4.
5
 Social Security Act § 1631(e)(1)(B), 42 U.S.C. § 1383(e)(1)(B) and 20 C.F.R. § 416.207. See also Foster Care
Independence Act of 1999, Pub. L. No. 106–169, 113 Stat. 1882 § 213.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                            1
statement information, including summary and transaction-level data, to identify excess income
and resources. 6

According to SSA, 56 percent of SSI improper payments in Fiscal Year (FY) 2011 was attributed
to the detection of unreported financial accounts and wages. 7 To help identify unreported
financial information, SSA

•   conducts periodic redeterminations of a recipient’s non-medical eligibility factors to
    determine whether the individual is receiving the correct SSI payment, 8

•   matches non-wage data reported to the Internal Revenue Service, and

•   requests employment and wage information from SSA-approved wage verification
    companies.

SSA implemented the Access to Financial Institutions (AFI) project nationwide in June 2011. 9
AFI is an automated, electronic process where SSA contracts with a third-party vendor to verify
financial account balances during SSI initial applications and redeterminations. AFI
provides only bank account balance data for resource purposes and does not provide transaction-
level detail—such as deposit activity—for income purposes.

While conducting our audit of Supplemental Security Income Recipients with Automated Teller
Machine Withdrawals Outside the United States (A-01-11-01122), we noted that, in addition to
revealing foreign ATM withdrawals that suggested non-residency, some of the bank statements
we obtained by subpoena contained deposit activity that was not reported to SSA. Although this
prior audit isolated individuals who were born outside the United States because it was an audit
examining ineligibility because the recipient was outside the United States for more than
30 days, we nevertheless analyzed the same random sample for the current audit to prevent the
expenses that we would incur issuing 250 additional subpoenas. In doing so, we examined
transaction-level activity for the same random sample of 250 SSI recipients born outside the
United States for a 2-year period (September 2009 to August 2011) and identified recipients who
likely received overpayments because of unreported changes in their financial situations. As we
have no reason to believe that either place of birth or our use of a single bank is relevant to



6
 Resources are cash, personal property, and any real property that an individual owns. SSA, POMS,
SI 01110.100 B (January 21, 1993).
7
  SSA, FY 2012 Performance and Accountability Report, November 8, 2012. According to SSA, the Agency
identifies about 12.5 percent of total SSI overpayments due to excess wages or income during redeterminations.
8
 20 C.F.R. § 416.204. Scheduled redeterminations are usually selected annually or once every 6 years, depending
on the likelihood of payment error. SSA, POMS, SI 02305.010 (October 4, 2007). Unscheduled redeterminations
are initiated when SSI recipients report—or SSA discovers—certain changes in circumstances that could affect
continuing SSI payment amounts.
9
 In 2005, SSA started the AFI pilot initiative in New York and New Jersey and fully integrated AFI into its SSI
system in 2012.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                            2
concealment of assets, we believe the results of this study are applicable to the SSI population as
a whole.

In March 2013, we requested that SSA’s Office of Operations notify the identified SSI recipients
and assess overpayments, as necessary. 10 (See Appendix A for additional information on our
scope and methodology.)

RESULTS OF REVIEW
We estimate SSA overpaid approximately $55 million to 18,541 SSI recipients because it was
not informed of changes to these individuals’ financial situations. 11

Our data were limited to SSI recipients who used one specific bank. If our results using sample
data associated with one bank represent all banks, SSA would potentially have overpaid about
$225 million to 76,168 SSI recipients. (No correlation should be made with an SSI recipient
having unreported income and his/her bank. In our July 2008 audit, we found overpayments
from unreported income and resources, which were sampled from a different bank than the
current audit. 12)

Sample Results                                                     Figure 1: Sample Results

Our review of 250 cases found

•    12 were overpaid $19,096 because
     of unreported income,                                                                          Unreported
                                                                                                      Income
•    6 were overpaid $34,166 because                                                                 12 Cases
                                                                                                        5%
     of unreported resources or changes
     in living arrangements, and                      No Finding                            Unreported
                                                      232 Cases                               Other
•    232 had no findings. 13                             93%                                 6 Cases
                                                                                               2%




10
  Under SSA’s due process procedures, the Agency attempts to contact the recipients before assessing
overpayments and/or stopping payments. See 20 C.F.R. § 416.558.
11
   Because of SSA’s rules of administrative finality, the Agency may be unable to recover a portion of these
overpayments. Under SSA’s administrative finality rules for SSI, the time period SSA can assess an overpayment to
a recipient is 1 year for any reason, 2 years for good cause, and any time when fraud or similar fault is found
(20 C.F.R. § 416.1488).
12
  SSA OIG, Supplemental Security Income Recipients with Excess Income and/or Resources (A-01-08-18022),
July 2008.
13
  Of these 232 cases, 191 had no findings of unreported income, and the other 41 cases were excluded for various
reasons, such as the SSI recipient no longer receiving payments or bank statements not provided by the bank.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                             3
Recipients with Unreported Income
We found 5 percent of our sample had unreported income on bank statements. 14 This income
typically appeared as bank branch or automated teller machine deposits, which SSA’s system
had not recorded as income. These recipients were overpaid $1,591 on average, ranging from
$109 to $8,320, with a median of $598.

Some examples of cases with unreported income are as follows.

1. We determined an SSI recipient was likely overpaid during all 24 months of our audit period.
   During this period, we found one or several deposits made each month in his individual bank
   account, which he did not report to SSA. The last redetermination SSA processed for the
   individual was April 2004, which was before our audit period. Therefore, we referred this
   case to SSA in March 2013 for development. In May 2013, SSA completed a
   redetermination for the SSI recipient and assessed an $8,320 overpayment for the period
   April 2011 through May 2013. According to SSA, the deposits were funds provided by the
   recipient’s brother to help offset his living expenses.

2. An SSI recipient had the deposits shown in Table 1 (in addition to her SSI direct deposit)
   during the 2-year period for which we obtained bank statements, yet the income was not
   reported to SSA. The last redetermination completed for this individual was February 2012.
   We referred this case to SSA, which assessed a $2,295 overpayment for the period
   January 2011 through May 2013. According to SSA, the unreported income was cash the
   recipient received from her divorced former spouse.

                                          Table 1: Case Example
                Date of Deposit on          Amount         Date of Deposit on         Amount
                 Bank Statement            of Deposit       Bank Statement           of Deposit
                     August 2, 2010           $120.00           April 21, 2011          $100.00
                    August 24, 2010           $200.00            May 18, 2011           $400.00
                   October 19, 2010           $176.00            June 15, 2011          $166.00
                   October 25, 2010           $150.00            June 27, 2011          $300.00
                 November 26, 2010            $570.00            July 13, 2011           $50.00
                    January 4, 2011           $350.00            July 26, 2011          $100.00
                   January 24, 2011           $141.50            July 30, 2011           $60.00
                   February 7, 2011           $300.00          August 15, 2011          $100.00
                  February 23, 2011           $160.00          August 18, 2011          $100.00
                    March 24, 2011            $100.00




14
  Our audit was limited to only the one bank account SSA had on record as the direct deposit account for these SSI
recipients. Therefore, it is possible these recipients had other bank accounts with the same or other banks. SSA’s
AFI program searches for undisclosed bank accounts.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                               4
Recipients with Unreported Resources or Changes in Living Arrangements
We found 2 percent of our sample had other unreported events consisting of resources or
changes in living arrangements. We identified the cases with resource issues by looking for a
monthly balance over the maximum allowable limit. 15

For example, an SSI recipient had a bank account balance over the $3,000 married resource limit
during the 10 months of November 2009, May through June 2010, November 2010 through
February 2011, and July through September 2011. We referred the case to SSA, and the Agency
assessed an $8,882 overpayment to the individual.

Recipients with No Findings
We determined 93 percent of our sample had no findings, for various reasons. The majority of
the cases had no findings of unreported income and some cases were excluded for reasons such
as the SSI recipient no longer receiving payments or bank statements not provided by the bank.

For example, we found deposits on an SSI recipient’s individual bank account statement, as
shown in Table 2. 16 When we referred this case to SSA, it concluded that the SSI recipient did
not have any unreported income that would impact the SSI payment. According to the recipient,
her daughter sent her money to purchase fabric and other related items on the daughter’s behalf
because these items were not available where her daughter lived in Washington. The SSI
recipient, who lived in California, then shipped the items to her daughter. The recipient showed
SSA receipts of (1) purchased items that matched the amounts of the bank deposits and
(2) shipments to her daughter’s address. Therefore, SSA did not assess an overpayment on this
case.

                                             Table 2: Case Example
                   Date of Deposit on         Amount       Date of Deposit on      Amount of
                    Bank Statement           of Deposit     Bank Statement          Deposit
                      August 14, 2009            $270.00     February 28, 2011        $301.20
                      August 21, 2009            $160.00         April 7, 2011        $260.00
                     January 19, 2010            $200.00         May 27, 2011         $100.00
                        May 19, 2010             $100.00          June 3, 2011        $350.00
                        July 15, 2010            $100.00          June 8, 2011        $220.00
                   September 10, 2010          $2,500.00          July 5, 2011        $100.00




15
     For SSI resource limits, see 20 C.F.R. § 416.1205.
16
  SSA assumes that the person designated as owner in the account title owns all funds in the account. SSA, POMS,
SI 01140.200 (May 9, 2012).



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                         5
Redeterminations
Redeterminations are one of the tools SSA uses to identify SSI overpayments. However,
redeterminations rely on the SSI recipients to provide accurate information about events that
could affect their SSI eligibility, such as income, resources, and living arrangements. Of the
18 SSI recipients we determined were overpaid, SSA conducted redeterminations for
7 (39 percent) either during or shortly after our 2-year audit period. On all seven of these
redeterminations, the individuals declared no changes to their financial situation; however, the
bank statements for the individuals reviewed in our audit revealed additional income the
recipients had not reported during their redeterminations. Of the remaining 11 SSI recipients, the
most recent redeterminations were before our audit period, ranging from May 2001 to
February 2008.

Obtaining Bank Deposit Data
Although we obtained and reviewed physical copies of bank statements for our sample, it would
be more efficient for SSA to obtain transaction-level bank deposit data for SSI recipients in an
automated, electronic method and integrate it with SSA’s existing systems.

In response to our July 2008 report on Supplemental Security Income Recipients with Excess
Income and/or Resources (A-01-08-18022), SSA indicated “…the use of [transaction-level] data
requires significant systems changes and considerable additional funding. In addition, we do not
know if comprehensive and detailed transaction-level data is available or if it can be provided to
SSA.” However, according to a previous discussion we had with the AFI vendor, transaction-
level data were available.

In June 2013, SSA indicated it was pursuing a data match to obtain wage information that is
more readily available, rather than relying on individuals to self-report their wages. Because this
data match would only identify instances of earned income, SSA would still have to rely on
individuals to self-report unearned income.

CONCLUSION
We agree with SSA’s Office of Quality Performance’s assessment—a key to improving the
accuracy in identifying overpayments is establishing program policies and procedures, including
electronic verification of SSI recipients’ financial information. Receiving data from a reliable
third-party source aids in mitigating discrepancies that can occur when SSI recipients self-report
their personal financial situations.

Although SSA has procedures in place to detect unreported financial changes, we identified SSI
recipients who were not eligible for payments because of unreported financial information in
detailed bank data. Specifically, we estimate SSA overpaid approximately $55 million to
18,541 SSI recipients because the Agency was not informed of changes to these individuals’
financial situations.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)             6
Our data were limited to SSI recipients who were born outside the United States and who used
one bank. If our results using sample data associated with one bank represent all banks, SSA
would potentially have overpaid about $225 million to 76,168 SSI recipients.

RECOMMENDATION
We recommend that SSA continue developing additional methods to identify unreported income
(earned and unearned) instead of relying primarily on SSI recipients’ self-reporting.

AGENCY COMMENTS
SSA agreed with the recommendation. However, the Agency expressed some concern with our
sampling from SSI recipients born outside the United States and with direct deposit in one bank.
See Appendix B.

OIG RESPONSE
As described in Appendix A, we used the same sample from our September 2012 audit,
Supplemental Security Income Recipients with Automated Teller Machine (ATM) Withdrawals
Outside the United States, 17 because we identified bank statements in that audit that contained
deposit amounts that appeared to exceed the allowable income/resource limits established by
SSA.

We conducted additional analysis of the bank statements from the same random sample of
250 foreign-born SSI recipients. Although place of birth was not relevant to the current audit,
using the same records represented a considerable savings. Because we had to subpoena records,
we only obtained information from one bank for this review. However, we chose the most
commonly used bank for SSI recipients with direct deposit (as shown in Table A–1).

We do not believe that our sampling from one bank is relevant to the concealment of assets since
we sampled from a different bank for our July 2008 audit, 18 which also found overpayments from
unreported income and resources. Specifically, our July 2008 audit (in which we sampled from
one of the top five banks used by SSI recipients) found that 7 percent of our sample were
overpaid compared to 7 percent being overpaid in the current audit from a different bank (which
was the most commonly used bank for SSI recipients). 19



17
 SSA OIG, Congressional Response Report: Supplemental Security Income Recipients with Automated Teller
Machine Withdrawal Outside the United States (A-01-11-01122), September 2012.
18
  SSA OIG, Supplemental Security Income Recipients with Excess Income and/or Resources (A-01-08-18022),
July 2008.
19
  For the current audit, 5 percent of the overpayments were due to unreported income and 2 percent were due to
unreported resources or changes in living arrangements. We did not separate the overpayments in this manner in the
prior audit.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                           7
Furthermore, SSA reported that 56 percent of SSI improper payments in Fiscal Year (FY) 2011
was attributed to the detection of unreported financial accounts and wages for the whole SSI
population 20—demonstrating that concealment of assets and income is not limited to recipients
born outside the United States or with direct deposit in a particular bank. Finally, our statistical
projections are based on actual overpayments assessed by SSA for our sample cases.




20
     SSA, FY 2012 Performance and Accountability Report, November 8, 2012.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                 8
                                        APPENDICES




Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)
Appendix A – SCOPE, METHODOLOGY, AND SAMPLE RESULTS
While conducting our audit, Supplemental Security Income Recipients with Automated Teller
Machine (ATM) Withdrawals Outside the United States, 1 we identified bank statements that
contained deposit amounts that appeared to exceed the allowable income/resource limits
established by the Social Security Administration (SSA). Consequently, the individuals
appeared to be most likely ineligible for and/or overpaid Supplemental Security Income (SSI)
payments.

To accomplish our objective, we conducted additional analysis of the bank statements from the
same random sample of 250 SSI recipients selected for our ATM audit. Specifically, we
reviewed the subpoenaed bank statement account balances and transaction history for the sample
cases and identified any balance(s) and deposit amount(s) that were not recorded in SSA’s
system for the individuals. For those individuals with large deposit amounts, we requested that
SSA contact the recipients to determine whether they were ineligible for, or overpaid, SSI.

We used the same sample from the ATM audit since we already had the bank records, and issuing
250 additional subpoenas would have involved additional expense and delay. The sample from
the 2012 audit consisted of SSI recipients born outside the United States because a Government
Accountability Office report 2 noted that recipients born outside the United States accounted for
at least 87 percent of the overpayments resulting from recipients being outside the United States
for more than 30 days (and the ATM audit’s objective was to identify overpayments caused by
these violations). The place of birth of the SSI recipients was not relevant to the current audit.

Furthermore, we only obtained bank records from one bank, the most commonly used bank for
SSI recipients with direct deposit, because the records had to be subpoenaed pursuant to the
Right to Financial Privacy Act. 3 Also, limiting our review to one bank to determine whether
deposit information was an indicator that an SSI recipient was overpaid because of unreported
income, was an effective use of our resources.

To identify and select the 250 sampled bank statements for the ATM audit, we took the following
steps.

            Obtained a file of 7.6 million SSI recipients in current payment status as of
             February 2011. From this file, we identified 5.3 million with direct deposit bank
             information—of those, approximately 1 million were born outside the United States.


1
 SSA OIG, Congressional Response Report: Supplemental Security Income Recipients with Automated Teller
Machine Withdrawal Outside the United States (A-01-11-01122), September 2012.
2
    GAO, SSI: SSA Could Enhance Its Ability to Detect Residency Violations (GAO-03-724), July 2003.
3
  12 U.S.C. § 3401 et seq. See 12 C.F.R. § 219.3 for the cost reimbursement fees for subpoenaed bank records. The
Social Security Act was amended in 1999 to allow SSA to request financial data for SSI recipients and SSA updated
its regulations on this in 2003; see Social Security Act §1631(e)(1)(B), 42 U.S.C. § 1383(e)(1)(B) and
20 C.F.R. § 416.207. Therefore, unlike the OIG, SSA does not need to subpoena bank records.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                       A-1
             We then sorted the population by count of SSI recipients under each bank institution
             (see Table A–1).

                                     Table A–1: Total Population by Bank
                                                                                       Percent of
                                                              Number of
                                 Bank                                                 Recipients in
                                                              Recipients
                                                                                       Population
                             Bank A                              257,512                   24%
                             Bank B                              199,504                   19%
                             Bank C                              103,393                   10%
                             Bank D                               44,510                    4%
                             Bank E                               26,298                    3%
                      Subtotal (Top 5 Banks)                     631,217                   60%
                        All Other Banks 4                        426,665                   40%
                          Total (All Banks)                    1,057,882                  100%

            Selected one of the top five banks from our population, Bank A, for further review. For
             audit purposes, we considered the characteristics and findings observed for Bank A to
             represent any bank providing services to the population of approximately 1 million
             recipients. Of the 257,512 SSI recipients with direct deposit at Bank A, we selected a
             random sample of 250 for detailed analysis.

            Subpoenaed bank statements from Bank A for the period September 2009 through
             August 2011 for our sample cases.

We conducted our audit in Boston, Massachusetts, between August 2012 and April 2013. We
tested the data obtained in our audit and determined them to be sufficiently reliable to meet our
objective. The entities audited were SSA’s field offices under the Office of the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
conduct the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




4
    Each bank had less than 3 percent of the total population of SSI recipients in our population.



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                A-2
Sample Results
                                  Table A–2: Populations and Sample Size
            SSI recipients born outside the United States with direct deposit                   1,057,882
            Population size - recipients with direct deposit at Bank A                            257,512
            Percent of recipients with direct deposit at Bank A                                      24%
            Sample size - recipients from the Bank A population                                       250

                            Table A–3: Sample Cases with Findings by State 5

                                                State                    Cases
                                    California                                8
                                    Florida                                   4
                                    Texas                                     2
                                    Washington                                2
                                    Georgia                                   1
                                    New York                                  1
                                                    Total                    18

                       Table A–4: Number of SSI Recipients with Overpayments
                                                     Results and Projections to         Estimate in All
                                                              Bank A                        Banks
                   Identified in Sample                               18
                      Point Estimate6                             18,541                        76,168
                  Projection Lower Limit                          12,119
                  Projection Upper Limit                          27,009
             Note: All projections are at the 90-percent confidence level.




5
    Although the 18 cases with findings were from 6 States, the sample of 250 cases represented 23 States.
6
  We calculated the estimate to all banks by dividing the population of cases for all banks by the population of cases
from Bank A and then multiplied by the point estimate for Bank A (1,057,882 / 257,512 * 17,511 = 71,937).



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                             A-3
                               Table A–5: Amount of SSI Overpayments
                                                    Results and Projections to         Estimate in All
                                                             Bank A                        Banks
                 Identified in Sample                           $53,262
                    Point Estimate7                         $54,862,015                $225,377,995
                Projection Lower Limit                      $23,142,908
                Projection Upper Limit                      $86,581,122
           Note: All projections are at the 90-percent confidence level.




7
  We calculated the estimate to all banks by dividing the population of cases for all banks by the population of cases
from Bank A and then multiplied by the point estimate for Bank A (1,057,882 / 257,512 * $43,458,147 =
$178,529,899).



Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)                            A-4
           Appendix B – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      August 20, 2013                                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Using Bank Data to Identify Supplemental
           Security Income Recipients with Overpayments” (A-01-12-11223)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)             B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT, “USING
BANK DATA TO IDENTIFY SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH
OVERPAYMENTS” (A-01-12-11223)

As described in our 2013-2016 Agency Strategic Plan goal of preserving the public’s trust in our
programs, improving payment accuracy is one of our highest priorities. We have implemented a
number of initiatives to detect changes in recipients’ income or resources and will continue our
efforts to avoid overpayments wherever possible. Your evaluation of the feasibility of using
bank data to identify unreported income found that only 12 of 250 cases (5 percent of the total)
had overpayments due to unreported income, which confirms that deposits to bank accounts do
not necessarily reflect countable income for Supplemental Security Income (SSI) purposes.

In addition, the cases reviewed are not representative of the general SSI population. We serve
approximately 8.3 million SSI recipients, of whom over 1 million are foreign-born. The sample
isolated individuals who were born outside the United States and whose SSI checks are directly
deposited at one distinct bank. We do not have confidence in such a narrowly drawn sample to
project findings with any degree of validity or reliability. We do not agree with the statement on
page 2 of the report that “(as) we have no reason to believe that either place of birth or our use of
a single bank is relevant to concealment of assets, we believe that the results of this study are
applicable to the SSI population as a whole.”

Given the concerns expressed above, we recommend, at a minimum, adding the word “Potential”
to the title of the report.

Recommendation

Continue developing additional methods to identify unreported income (earned and unearned)
instead of relying primarily on SSI recipients’ self-reporting.

Response

We agree. We will continue to support the development of additional methods to identify
unreported income (earned and unearned) instead of relying primarily on SSI recipients’
self-reporting. For example, we continue to support efforts to improve the Veterans Affairs
(VA) interface process, which detects and adjusts payment amounts based on unreported or
underreported unearned income of SSI recipients who receive VA pensions. We will also
continue to pursue the Electronic Wage Verification Project. This project, if implemented, will
allow us to obtain, match, and update wage information received electronically from wage
verification companies such as The Work Number.

We consider this recommendation closed for tracking purposes.




Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)            B-2
Appendix C – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Chad Burns, Senior Auditor

Katie Toli, Auditor

Brennan Kraje, Statistician




Using Bank Data to Identify SSI Recipients with Potential Overpayments (A-01-12-11223)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
